Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL



  THE OFFICE FOR CIVIL RIGHTS
   DID NOT MEET ALL FEDERAL
 REQUIREMENTS IN ITS OVERSIGHT
    AND ENFORCEMENT OF THE
 HEALTH INSURANCE PORTABILITY
    AND ACCOUNTABILITY ACT
         SECURITY RULE



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.



                                                  Thomas M. Salmon
                                               Assistant Inspector General

                                                      November 2013
                                                      A-04-11-05025
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at https://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Health Insurance Portability and Accountability Act of 1996

The Health Insurance Portability and Accountability Act of 1996 (HIPAA) required the U.S.
Department of Health and Human Services (HHS) to develop national standards for the use and
dissemination of health care information, including standards to protect electronic protected
health information (ePHI). To satisfy that requirement, HHS published the HIPAA Security
Rule (Security Rule), which describes the administrative, physical, and technical safeguards
necessary to ensure the confidentiality, integrity, and availability of ePHI.

Health Information Technology for Economic and Clinical Health Act

As part of the American Recovery and Reinvestment Act of 2009, Congress enacted the Health
Information Technology for Economic and Clinical Health Act (HITECH). HITECH extends
the Security Rule and its civil penalties for covered entities that do not comply with the Security
Rule to business associates of covered entities. HITECH also requires HHS to provide for
periodic audits of covered entities to ensure their compliance with HIPAA requirements.

Prior Office of Inspector General Reports on Oversight of the Security Rule

In October 2008, we reported to the Centers for Medicare & Medicaid Services (CMS) that it
had taken limited actions to ensure covered entities complied with the Security Rule. At the time
of our 2008 report, CMS had not conducted Security Rule compliance audits of covered entities
and had not established policies or procedures for conducting those audits. We recommended
that CMS establish policies and procedures for conducting compliance audits of covered entities.

In our May 2011 report to the Office for Civil Rights (OCR) (after the delegation of
responsibility for the Security Rule to OCR in 2009), we summarized the results of our audits of
CMS’s oversight and enforcement of Security Rule implementation at seven hospitals. The
report disclosed numerous control weaknesses at the hospitals and demonstrated the need for
greater OCR oversight and enforcement. We also reported that, in 2009, CMS began conducting
self-initiated compliance audits of covered entities. We recommended that OCR continue the
compliance-audit process that CMS had begun and implement procedures for conducting
compliance reviews.

OBJECTIVES

Our objectives were to determine whether: (1) OCR met Federal requirements for oversight and
enforcement of the Security Rule and (2) OCR’s computer systems used to oversee and enforce
the Security Rule met Federal cybersecurity requirements.




                                                 i
SUMMARY OF FINDINGS

OCR met some Federal requirements for oversight and enforcement of the Security Rule. OCR
made available to covered entities guidance that promoted compliance with the Security Rule
and OCR established an investigation process for responding to reported violations of the
Security Rule. OCR also followed Federal regulations when imposing penalties for Security
Rule violators.

However, OCR did not meet other Federal requirements critical to the oversight and enforcement
of the Security Rule:

   •   Although OCR made available to covered entities guidance that promoted compliance
       with the Security Rule, it had not assessed the risks, established priorities, or
       implemented controls for its HITECH requirement to provide for periodic audits of
       covered entities to ensure their compliance with Security Rule requirements. As a result,
       OCR had limited assurance that covered entities complied with the Security Rule and
       missed opportunities to encourage those entities to strengthen their security over ePHI.

   •   Although OCR established an investigation process for responding to reported violations
       of the Security Rule, its Security Rule investigation files did not contain required
       documentation supporting key decisions because its staff did not consistently follow
       OCR investigation procedures by sufficiently reviewing investigation case
       documentation. OCR had not implemented sufficient controls, including supervisory
       review and documentation retention, to ensure investigators follow investigation policies
       and procedures for properly initiating, processing, and closing Security Rule
       investigations.

In addition, OCR had not fully complied with Federal cybersecurity requirements included in the
National Institute of Standards and Technology (NIST) Risk Management Framework for its
information systems used to process and store investigation data because it focused on system
operability to the detriment of system and data security. For example, OCR did not obtain HHS
authorizations to operate the three systems used to oversee and enforce the Security Rule. In
addition, it did not complete privacy impact assessments, risk analyses, or system security plans
for two of the three systems. Exploitation of system vulnerabilities, normally identified through
the Risk Management process, could impair OCR’s ability to perform functions vital to its
mission.

RECOMMENDATIONS

We recommend that OCR:

   •   assess the risks, establish priorities, and implement controls for its HITECH auditing
       requirements;

   •   provide for periodic audits in accordance with HITECH to ensure Security Rule
       compliance at covered entities;


                                                ii
   •   implement sufficient controls, including supervisory review and documentation retention,
       to ensure policies and procedures for Security Rule investigations are followed; and

   •   implement the NIST Risk Management Framework for systems used to oversee and
       enforce the Security Rule.

OFFICE FOR CIVIL RIGHTS COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

In its comments on our draft report, OCR generally concurred with our recommendations and
described the actions it has taken to address them. In one of its comments, OCR stated that it
had contracted for the development of its audit mandate options, had developed an audit protocol,
had conducted pilot audits of covered entities, and was evaluating the results of its pilot audit
program. However, OCR explained that no funds had been appropriated for it to maintain a
permanent audit program and that funds used to support audit activities previously conducted were
no longer available. OCR also provided technical comments, which we addressed as appropriate.

We remain concerned about OCR’s ability to comply with the HITECH audit requirement and
the resulting limited assurance that ePHI is secure at covered entities because of OCR’s comment
regarding limited funding resources for its audit mandates. Furthermore, in response to one of
OCR’s technical comments, we changed our report language to clarify our finding on OCR’s
oversight and enforcement of covered entity compliance with the Security Rule by removing a
reference to Security Rule requirements. Although the Security Rule authorized compliance
reviews of covered entities in 2006 by stating that OCR “may conduct compliance reviews to
determine” Security Rule compliance, HITECH changed the requirement in 2009 to state that
OCR “shall provide for periodic audits to ensure” Security Rule compliance.




                                               iii
                                                  TABLE OF CONTENTS


INTRODUCTION .........................................................................................................................1

          BACKGROUND .................................................................................................................1
              Health Insurance Portability and Accountability Act of 1996 ................................ 1
              Health Information Technology for Economic and Clinical Health Act ................ 1
              Delegation of Authority To Administer the Health Insurance
                Portability and Accountability Act of 1996 Security Rule .................................. 1
              Responsibilities of the Office for Civil Rights ....................................................... 1
              Prior Office of Inspector General Reports on Oversight of the Security Rule ....... 2

          OBJECTIVES, SCOPE, AND METHODOLOGY ............................................................ 2
               Objectives ............................................................................................................... 2
               Scope ....................................................................................................................... 2
               Methodology ........................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ............................................................................... 4

          OFFICE FOR CIVIL RIGHTS PARTIALLY MET REGULATORY
           REQUIREMENTS FOR OVERSIGHT AND ENFORCEMENT .................................. 5
               Periodic Audits Not Provided For........................................................................... 5
               Insufficient Records for Security Rule Investigations ............................................ 5

          SYSTEMS DID NOT FULLY COMPLY WITH FEDERAL CYBERSECURITY
           REQUIREMENTS ........................................................................................................... 6

          RECOMMENDATIONS .................................................................................................... 7

          OFFICE FOR CIVIL RIGHTS COMMENTS ................................................................... 8

          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................... 8

APPENDIXES

          A: FEDERAL REQUIREMENTS AND OFFICE FOR CIVIL RIGHTS PROCEDURES

          B: OFFICE FOR CIVIL RIGHTS COMMENTS




                                                                     iv
                                                   INTRODUCTION

BACKGROUND

Health Insurance Portability and Accountability Act of 1996

The Health Insurance Portability and Accountability Act of 1996 (HIPAA) (P.L. No. 104-191)
required the U.S. Department of Health and Human Services (HHS) to develop national
standards for the use and dissemination of health care information, including standards to protect
electronic protected health information (ePHI). These standards are applicable to the three types
of covered entities: health plans, healthcare clearinghouses, and certain healthcare providers.

To satisfy the requirement to develop national standards to protect ePHI, HHS published the
HIPAA Security Rule (Security Rule) in 45 CFR parts 160, 162, and 164. The Security Rule
describes the administrative, physical, and technical safeguards necessary to ensure the
confidentiality, integrity, and availability of ePHI.

Health Information Technology for Economic and Clinical Health Act

As part of the American Recovery and Reinvestment Act of 2009 (P.L. No. 111-5), Congress
enacted the Health Information Technology for Economic and Clinical Health Act (HITECH).
HITECH extended the Security Rule and related civil penalties to business associates of covered
entities. 1 HITECH also requires HHS to provide for periodic audits of covered entities to ensure
compliance with HIPAA requirements (subtitle D, part 1, § 13411).

Delegation of Authority To Administer the Health Insurance Portability and
Accountability Act of 1996 Security Rule

On October 7, 2003, HHS delegated to the Centers for Medicare & Medicaid Services (CMS) the
authority to enforce compliance with the Security Rule and to impose civil monetary penalties on
covered entities that violate it. The Final Rule for enforcement of the Security Rule became
effective on March 16, 2006 (71 Fed. Reg. 8390 (Feb. 16, 2006)).

On July 27, 2009, HHS delegated the authority for the oversight and enforcement of the Security
Rule to the Office for Civil Rights (OCR).

Responsibilities of the Office for Civil Rights

As HHS’s civil rights, health information privacy, and security enforcement division, OCR’s
purpose is to protect fundamental rights of nondiscrimination and ensure compliance with health
information privacy and security laws. As of July 27, 2009, OCR became responsible for
ensuring that covered entities comply with the Security Rule and for investigating and resolving
potential HIPAA violations. The HITECH Act requires OCR to provide for periodic audits of

1
    In this audit report, we used the term “covered entities” also to refer to the business associates of covered entities.


                                                              1
covered entities, while Federal regulations grant OCR the leeway to resolve matters involving
indications of noncompliance informally 2 or to impose civil monetary penalties if it determines
that a covered entity has violated a Security Rule requirement. OCR is also required to comply
with Federal internal control and cybersecurity requirements.

Prior Office of Inspector General Reports on Oversight of the Security Rule

In October 2008, we reported to CMS 3 that it had taken limited actions to ensure that covered
entities complied with the requirements of the Security Rule. At the time of our report, CMS had
not conducted any Security Rule compliance audits of covered entities and had not established
any policies or procedures for conducting them. We recommended that CMS establish policies
and procedures for conducting compliance audits of covered entities.

In a May 2011 report to OCR, 4 we summarized the results of our reviews of CMS’s oversight
and enforcement of Security Rule implementation at seven hospitals located in California,
Georgia, Illinois, Massachusetts, Missouri, New York, and Texas. The report disclosed
numerous control weaknesses at the hospitals and demonstrated the need for greater OCR
oversight and enforcement. We also reported that, in 2009, CMS began conducting self-initiated
compliance audits of covered entities. We recommended that OCR continue the compliance
audit process that CMS had begun and implement procedures for conducting compliance audits
to ensure that Security Rule controls are in place and operating as intended to protect ePHI at
covered entities.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether: (1) OCR met Federal requirements for oversight and
enforcement of the Security Rule and (2) OCR’s computer systems used to oversee and enforce
the Security Rule met Federal cybersecurity requirements.

Scope

We performed our fieldwork at OCR’s headquarters in Washington, DC, and its Atlanta regional
office. We assessed OCR’s Security Rule oversight and enforcement for the period July 2009
through May 2011 and its computer systems as of May 2011.




2
 “Informal means” may include demonstrated compliance, a completed corrective action plan, or other agreements
(45 CFR § 160.312).
3
 On October 27, 2008, we issued a report to CMS entitled Nationwide Review of the Centers for Medicare
& Medicaid Services Health Insurance and Portability and Accountability Act of 1996 Oversight (A-04-07-05064).
4
 On May 16, 2011, we issued a report to OCR entitled Nationwide Rollup Review of the Centers for Medicare
& Medicaid Services Health Insurance Portability and Accountability Act of 1996 Oversight (A-04-08-05069).

                                                       2
Methodology

To accomplish our objectives, we:

   •   reviewed Federal laws and regulations pertaining to ePHI and cybersecurity;

   •   reviewed OCR’s policies, processes, systems, and applications used to oversee and
       enforce the Security Rule;

   •   assessed OCR’s oversight and enforcement of the Security Rule as applied to covered
       entities;

   •   evaluated the risk assessment OCR used to allocate its oversight and enforcement
       resources;

   •   reviewed OCR’s use of civil monetary penalties for Security Rule violations;

   •   interviewed OCR staff members in Washington, D.C.; Atlanta, Georgia; Boston,
       Massachusetts; Chicago, Illinois; and Philadelphia, Pennsylvania; to understand their
       interpretation of and processes for implementing and enforcing the Security Rule;

   •   assessed OCR’s guidance to covered entities regarding the Security Rule;

   •   reviewed OCR’s contracts and interviewed contractor personnel who performed technical
       analyses and provided recommendations to OCR regarding potential Security Rule
       violations;

   •   judgmentally selected 30 closed and 30 open investigations from 364 investigations of
       potential Security Rule violations conducted between July 2009 and February 2011; and

   •   interviewed the OCR official responsible for overseeing investigations and supervising
       regional OCR staff.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




                                               3
                          FINDINGS AND RECOMMENDATIONS

OCR met some Federal requirements for oversight and enforcement of the Security Rule:

   •   OCR made available to covered entities guidance to promote compliance with the
       Security Rule.

   •   OCR established an investigation process for responding to reported violations of the
       Security Rule.

   •   OCR followed Federal regulations for penalizing Security Rule violators. It closed 147
       of 364 Security Rule investigations from July 2009 through February 2011. Although
       OCR might have been able to impose civil monetary penalties for some of the most
       severe violations, OCR followed Federal requirements by resolving those cases
       informally.

However, OCR did not meet other Federal requirements for the oversight and enforcement of the
Security Rule:

   •   Although OCR made available to covered entities guidance to promote compliance with
       the Security Rule, it had not assessed the risks, established priorities, or implemented
       controls for its HITECH requirement to provide for periodic audits of covered entities to
       ensure their compliance with Security Rule requirements. As a result, OCR had limited
       assurance that covered entities complied with the Security Rule and missed opportunities
       to encourage those entities to strengthen their security over ePHI.

   •   Although OCR established an investigation process for responding to reported violations
       of the Security Rule, its Security Rule investigation files did not contain required
       documentation supporting key decisions made during those investigations because its
       staff did not consistently follow OCR investigation procedures by sufficiently reviewing
       investigation case documentation. OCR had not implemented sufficient controls,
       including supervisory review and documentation retention, to ensure investigators follow
       investigation policies and procedures for properly initiating, processing, and closing
       Security Rule investigations. By not consistently following its investigation procedures
       and reviewing case documentation, OCR had limited assurance that it had identified and
       mitigated vulnerabilities to ePHI during Security Rule investigations.

In addition, OCR had not fully complied with Federal cybersecurity requirements included in the
National Institute of Standards and Technology (NIST) Risk Management Framework for its
information systems used to process and store investigation data because it focused on system
operability to the detriment of system and data security. For example, OCR did not obtain HHS
authorizations to operate the three systems used to oversee and enforce the Security Rule. In
addition, it did not complete privacy impact assessments, risk analyses, and system security plans
for two of the three systems. Exploitation of unaddressed system vulnerabilities normally
identified through the Risk Management process, could impair OCR’s ability to perform
functions vital to its mission.

                                                4
OFFICE FOR CIVIL RIGHTS PARTIALLY MET REGULATORY REQUIREMENTS
FOR OVERSIGHT AND ENFORCEMENT

Periodic Audits Not Provided For

HITECH requires OCR to provide for periodic audits to ensure that covered entities and their
business associates comply with Security Rule requirements (HITECH Act, section 13411). The
Office of Management and Budget (OMB) Circular A-123, Management’s Responsibility for
Internal Control, requires management to establish and maintain controls to comply with
applicable laws and regulations. It further states that management should perform risk
assessments to identify the most significant areas in which to place or enhance controls.

OCR did not provide for periodic audits of covered entities in accordance with these Federal
requirements. Instead, OCR continued to follow the complaint-driven approach developed
jointly by CMS and OCR but discontinued the compliance-audit process that CMS had begun in
2009.

OCR had not established controls for complying with HITECH’s auditing requirements. For
example, OCR had not assessed which entities or what systems used for storing or processing
ePHI presented the greatest risk of ePHI exposure. Instead of assessing the risks, establishing
priorities, and implementing controls for the redelegated Security Rule and the HITECH
requirements, OCR applied the resources and procedures it had been using for its responsibilities
in civil rights and health privacy oversight and enforcement before the redelegation.

OCR allocated its resources to manage an increasing number of Security Rule investigations
originating primarily from press reports, reported breaches affecting 500 or more individuals,
and complaints from the public. OCR officials stated that OCR did not have sufficient resources
to expand its compliance efforts beyond event-driven compliance investigations. In addition,
OCR did not have the expertise needed to meet its Security Rule and HITECH responsibilities,
which include the ability to audit security controls for systems that process and store ePHI. 5

Because OCR did not perform the compliance audits mandated by HITECH, it had limited
information about the status of Security Rule compliance at covered entities. Therefore, it had
limited assurance that ePHI was secure and might have missed opportunities to motivate covered
entities to strengthen ePHI security. The cumulative results of an audit program would also have
helped OCR better understand the areas in which ePHI was vulnerable and might have helped
OCR develop more effective ways to allocate its oversight resources.

Insufficient Records for Security Rule Investigations

OCR’s publication, Dual Process Complaint Manual: The Process and Workflow for Security
Rule and Dual Process Complaints, requires designated OCR headquarters and regional
personnel to update the Compliance Data System (CDS) as needed with all documentation
5
 An evaluation of budget and staffing to determine whether OCR had sufficient resources and staff expertise to
meet its responsibilities was outside the scope of this review. Therefore, we have not made any recommendations to
address the issues raised by OCR officials.

                                                        5
required to initiate, process, and close Security Rule investigations. OMB Circular A-123
requires management to establish and maintain controls to achieve the objectives of effective and
efficient operations.

Security Rule investigation records did not contain documentation needed to support key
decisions made during those investigations. Specifically, 39 of 60 selected records were missing
1 or more of the documents necessary to initiate, process, or close those investigations.
Examples of missing documentation included initial complaint documents, closure letters, and
documents required for tracking complaint status through the Security Rule investigation
process.

OCR Security Rule investigation records were missing documentation because OCR
investigators did not consistently follow OCR’s policies and procedures for documenting case
investigations and OCR management did not implement sufficient controls, such as supervisory
reviews, to ensure that the investigators did so.

Without adequate supporting documentation for tracking investigations, such as initial complaint
and case progress-tracking forms, OCR management could not be certain that its investigators
conducted Security Rule investigations properly. In addition, OCR management could not be
certain that it identified and mitigated problems related to the initial complaints during the
investigation process. Without a closure letter, OCR management could not be certain that OCR
had approved a covered entity’s mitigation strategy.

SYSTEMS DID NOT FULLY COMPLY WITH FEDERAL CYBERSECURITY
REQUIREMENTS

The Federal Information Security Management Act of 2002 (FISMA) requires each Federal
agency to develop, document, and implement an agencywide program to provide information
security for the information and information systems that support the operations and assets of the
agency, including those provided or managed by another agency, contractor, or source. HHS
requires its operating and staff divisions to follow FISMA and other Federal cybersecurity
requirements for the secure development, operation, and maintenance of information systems.
More specifically, HHS requires security authorizations, privacy impact assessments, risk
analyses, and system security plans for Federal information systems (HHS Standard for FISMA
Inventory Management). The detailed requirements are in Appendix A.

OCR’s computer systems used to store, retrieve, and track Security Rule oversight and
enforcement data did not fully comply with Federal cybersecurity requirements. OCR had not
fully implemented the NIST Risk Management Framework 6 for three of its Security Rule
oversight systems: the Program Information Management System (PIMS), the CDS, and the
Breach Notification system. More specifically, OCR did not:


6
  NIST’s Risk Management Framework provides a structured process and information to help organizations identify
the risks to their information systems, assess those risks, and take steps to reduce risks to an acceptable level.
Available online at http://csrc.nist.gov/publications/nistbul/july2009_risk-management-framework.pdf. Accessed
on July 2, 2012.

                                                        6
   •   obtain HHS authorizations to operate its PIMS, CDS, or Breach Notification system;

   •   complete a privacy impact assessment and risk analysis for the CDS or the Breach
       Notification system;

   •   develop a system security plan for the CDS and the Breach Notification systems; or

   •   implement additional Federal security requirements not included above for its Breach
       Notification system.

In general, OCR management focused on the operability of the systems used for HIPAA
oversight and enforcement by its predecessor CMS when OCR was delegated additional Security
Rule and HITECH responsibilities and did not focus on securing the systems used to store,
retrieve, process, and track Security Rule oversight and enforcement data. OCR copied,
renamed, and partially modified the CMS Administrative Simplification Enforcement Tool
system into its CDS system to receive, maintain, and process Security Rule investigation data.
However, OCR management did not give Federal cybersecurity requirements sufficient priority
and, consequently, did not complete Risk Management Framework requirements for its PIMS,
CDS, or Breach Notification system. Further, the underlying reason OCR’s Breach Notification
system did not meet Federal cybersecurity requirements was that OCR management had not
classified it properly as a system subject to Federal cybersecurity requirements.

Although we found no evidence that anyone had compromised OCR’s sensitive information or
information systems, by not complying with Federal cybersecurity requirements, OCR increased
the risk that it might not identify or mitigate system vulnerabilities. Exploitation of any of those
system vulnerabilities could impair OCR’s ability to perform various business processes,
including compliance activities, real-time access and results reporting, timely responses to
complaints, and completion of investigations. It also could increase the risk of unauthorized
disclosure or destruction of ePHI.

RECOMMENDATIONS

We recommend that OCR:

   •   assess the risks, establish priorities, and implement controls for its HITECH auditing
       requirements;

   •   provide for periodic audits in accordance with HITECH to ensure Security Rule
       compliance at covered entities;

   •   implement sufficient controls, including supervisory review and documentation retention,
       to ensure policies and procedures for Security Rule investigations are followed; and

   •   implement the NIST Risk Management Framework for systems used to oversee and
       enforce the Security Rule.


                                                 7
OFFICE FOR CIVIL RIGHTS COMMENTS

In its comments on our draft report, OCR generally concurred with our recommendations and
described the actions it has taken to address them. In one of its comments, OCR stated that it
had contracted for the development of its audit mandate options, had developed an audit protocol,
had conducted pilot audits of covered entities, and was evaluating the results of its pilot audit
program. However, OCR explained that no funds had been appropriated for it to maintain a
permanent audit program and that funds used to support audit activities previously conducted were
no longer available. OCR also provided technical comments, which we addressed as appropriate.
OCR’s comments, excluding technical comments, are included as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

We remain concerned about OCR’s ability to comply with the HITECH audit requirement and
the resulting limited assurance that ePHI is secure at covered entities because of OCR’s comment
regarding limited funding resources for its audit mandates. Furthermore, in response to one of
OCR’s technical comments, we changed our report language to clarify our finding on OCR’s
oversight and enforcement of covered entity compliance with the Security Rule by removing a
reference to Security Rule requirements. Although the Security Rule authorized compliance
reviews of covered entities in 2006 by stating that OCR “may conduct compliance reviews to
determine” Security Rule compliance, HITECH changed the requirement in 2009 to state that
OCR “shall provide for periodic audits to ensure” Security Rule compliance.




                                                8
APPENDIXES
                                                                                         Page 1 of 4


   APPENDIX A: FEDERAL REQUIREMENTS AND OFFICE FOR CIVIL RIGHTS
                           PROCEDURES

PERIODIC AUDIT REQUIREMENTS

Before HITECH mandated periodic audits of covered entities and business associates, HIPAA
authorized compliance reviews of covered entities.

HHS published the Security Rule, which describes the administrative, physical, and technical
safeguards necessary to ensure the confidentiality, integrity, and availability of ePHI. Under the
Security Rule:

       The Secretary may conduct compliance reviews to determine whether covered
       entities are complying with the applicable requirements of this part 160 and the
       applicable standards, requirements, and implementation specifications of subpart
       E of part 164 of this subchapter (45 CFR § 160.308).

HITECH (section 13411) stipulates that “[t]he Secretary shall provide for periodic audits to
ensure that covered entities and business associates ... comply with [Security Rule]
requirements.”

SECURITY RULE ENFORCEMENT REQUIREMENTS

Federal regulations (45 CFR § 160.402 (a)) state that the Secretary will impose a civil money
penalty on a covered entity if the Secretary determines that the covered entity has violated a
Security Rule requirement.

Additional regulations (45 CFR § 160.312) state that: “(1) If an investigation of a complaint …
or a compliance review … indicates noncompliance, the Secretary will attempt to reach a
resolution of the matter satisfactory to the Secretary by informal means. Informal means may
include demonstrated compliance, a completed corrective action plan, or other agreements.”

OCR publication Dual Process Complaint Manual: The Process and Workflow for Security Rule
and Dual Process Complaints (the manual) applies to Security Rule cases. The manual states
that designated OCR headquarters and regional personnel will update the Compliance Data
System as needed with all documentation required to initiate, process, and close a Security Rule
investigation.

INTERNAL CONTROL REQUIREMENTS

OMB Circular No. A-123 states: “[m]anagement is responsible for establishing and maintaining
internal control to achieve the objectives of effective and efficient operations, reliable financial
reporting, and compliance with applicable laws and regulations. Management shall consistently
apply the internal control standards to meet each of the internal control objectives and to assess
internal control effectiveness.”
                                                                                         Page 2 of 4


It further states that internal control is a:

        …means of managing the risk associated with Federal programs and operations.
        Managers should define the control environment (e.g., programs, operations, or
        financial reporting) and then perform risk assessments to identify the most
        significant areas within that environment in which to place or enhance internal
        control. The risk assessment is a critical step in the process to determine the
        extent of controls. Once significant areas have been identified, control activities
        should be implemented. Continuous monitoring and testing should help to
        identify poorly designed or ineffective controls and should be reported upon
        periodically….

FEDERAL CYBERSECURITY REQUIREMENTS

FISMA requires each Federal agency to develop, document, and implement an agencywide
program to provide information security for the information and information systems that
support the operations and assets of the agency, including those provided or managed by another
agency, contractor, or other source.

Federal Information Processing Standards Publication Minimum Security Requirements for
Federal Information and Information Systems (FIPS 200) requires information systems to
comply with the most recent edition of NIST Special Publication (SP) 800-53, Recommended
Security Controls for Federal Information Systems. FIPS 200 states: “Organizations must meet
the minimum security requirements in this standard by selecting the appropriate security controls
and assurance requirements as described in NIST [SP] 800-53…. Organizations must use the
most current version of NIST [SP] 800-53, as amended, for the security control selection
process.”

The HHS Office of Chief Information Officer (OCIO) policy, HHS-OCIO Policy for Information
Systems Security and Privacy (HHS-OCIO-2011-0003), section 4, established U.S. Government
mandates for the secure development, operation, and maintenance of information systems in
HHS and its Operating Divisions/Staff Divisions (OPDIVs/STAFFDIVs).

Sections 4.1.1 and 4.1.2 state:

        OPDIVs/STAFFDIVs shall use NIST … SP 800-37 Revision (Rev.) 1, Guide for
        Applying the Risk Management Framework to Federal Information Systems: A
        Security Life Cycle Approach (dated February 2010), as the methodology for the
        security authorization of information systems (formerly known as “certification
        and accreditation” or “C&A”), in accordance with FISMA and direction from
        OMB…. OPDIVs/STAFFDIVs shall comply with Department minimum
        requirements when preparing security authorization packages for information
        systems.
                                                                                      Page 3 of 4


NIST SP 800-53, Revision 3, in section CA-2, Security Assessment, states:

       The organization:

   a. Develops a security assessment plan that describes the scope of the assessment
      including:

       1) Security controls and control enhancements under assessment;
       2) Assessment procedures to be used to determine security control effectiveness;
          and
       3) Assessment environment, assessment team, and assessment roles and
          responsibilities;

   b. Assesses the security controls in the information system … to determine the
      extent to which the controls are implemented correctly, operating as intended, and
      producing the desired outcome with respect to meeting the security requirements
      for the system;

   c. Produces a security assessment report that documents the results of the
      assessment; and

   d. Provides the results of the security control assessment, in writing, to the
      authorizing official or authorizing official designated representative.

The HHS Standard for FISMA Inventory Management policy (HHS Inventory Policy) requires
all HHS information technology systems to be recorded through the HHS FISMA reporting tool
and the following to be documented:

   •   System type (i.e., GSS [general support system], major application, or minor
       application)…;

   •   Information type(s) and corresponding FIPS 199 risk impact levels (i.e.,
       categorizations) for the individual information types and for the IT system;

   •   Privacy Impact Assessment (PIA);

   •   e-Authentication risk assessment completion date and highest authentication
       assurance level; and

   •   Weaknesses and corrective actions within a POA&M [Plan of Actions and
       Milestones]. The GSS or major application POA&M must account for the
       weaknesses of all applications (major or minor, as applicable) within its
       accreditation boundary.

The HHS Inventory Policy also requires all HHS information technology systems to be certified
and accredited in accordance with NIST and HHS guidance. The scope of the certification and
                                                                                        Page 4 of 4


accreditation shall be commensurate with the FIPS 199 risk impact level of the system and
document a Risk Assessment, Security Assessment Report, POA&M, and accreditation decision
letter with corresponding full Authorization to Operate. The scope should also include a current
System Security Plan and an Information Technology Contingency Plan.

NIST SP 800-37, Guide for Applying the Risk Management Framework to Federal Information
Systems—A Security Life Cycle Approach, revision 1, section 2.1, states that, to fulfill the Risk
Management Framework, organizations must:

   •   Categorize the information system and the information processed, stored, and
       transmitted by that system based on an impact analysis.

   •   Select an initial set of baseline security controls for the information system based
       on the security categorization; tailoring and supplementing the security control
       baseline as needed based on an organizational assessment of risk and local
       conditions.

   •   Implement the security controls and describe how the controls are employed
       within the information system and its environment of operation.

   •   Assess the security controls using appropriate assessment procedures to determine
       the extent to which the controls are implemented correctly, operating as intended,
       and producing the desired outcome with respect to meeting the security
       requirements for the system.

   •   Authorize information system operation based on a determination of the risk to
       organizational operations and assets, individuals, other organizations, and the
       Nation resulting from the operation of the information system and the decision
       that this risk is acceptable.

   •   Monitor the security controls in the information system on an ongoing basis
       including assessing control effectiveness, documenting changes to the system or
       its environment of operation, conducting security impact analyses of the
       associated changes, and reporting the security state of the system to designated
       organizational officials.
                                                                                                                        Page 1 of6


                     APPENDIX B: OFFICE FOR CIVIL RIGHTS COMMENTS 




("~                  	
                DEPARTMENT OF HEALTH & HUMAN SERV!C&S                                         Office of the Secretary

~~.~.-:::z~
                                                                                              Director
                                                                                              Office for Civil Rights
                                                                                              Washington, D.C. 2020 1




              September 26, 20 I 3

              MEMORANDUM

              TO: 	          Thomas M. Salmon 

                             Assistant Inspector neral for Audit Services 


              FROM: 	        Leon Rodriguez 

                             Director 


              SUBJECT: 	 The Office for C il Rights Did N ot Meet All Federal Requirements in its
                         Oversight and Enforcement of the Health [nsurance Portability and
                         Accountability Act Security Rule (A-04-11-05025)


              Thank you for the opportunity to review the subject draft report. The Office for Civil Rights
              (OCR) appreciates the eftorts and recommendations of the Office of the Inspector General
              (OIG). As detailed below, OCR has made significant progress in addressi ng the

              recommendations in the draft report. • • • • • • • • • • • • • • • • • • •

                 I




                 I


                                                               1

                         Office of Inspector General Not e - Technical comments in the auditee's
                         response to the draft have been omitted from the final report and all appropriate
                         changes have been made.
                                                                                                     Page 2 of6




   I


   I




Responses to Recommendations:
1) Assess tbe risks, establish priorities, and implement controls for its Security Rule and
   HITECH requirements
The Office for Civil Rights (OCR) has developed and executed a series of strategic initiatives to
implement the Security Rule and HITECH requirements. OCR was a partner in the development
ofHHS' s Federal Health IT Strategic Plan for 2011-2015, which describes the Federal
government's strategy to implement the HITECH Act's initiatives across the Department with a
goal toward improving health and health care for all Americans through use of health
information and technology. Goallll of the Federal Health IT Strategic Plan focuses on Federal
privacy and security efforts so that electronic health information will be protected and used
appropriately within health IT systems in patient care.
OCR issued final rules in January 2013 to implement modifications to the Health Insurance
Portability and Accountability Act (HIPAA) Privacy, Security, Breach Notification, and
Enforcement Rules, as required by the HITECH Act. This rule effectively extends the use and
disclosure requirements of the Privacy Rule, as well as the provisions of the Security Rule to the
contractors of health care providers and health plans ("business associates") covered by HIPAA,
as well as their subcontractors.
OCR has enhanced enforcement of the HIPAA Rules. From 2008 through 2012, OCR obtained
corrective action from covered entities in more than 13,000 cases in which our investigations
found indications of noncompliance with HIPAA. During the same period, OCR reached
resolution agreements with covered entities in 11 cases. The payments resulting from these ll
resolution agreements total approximately $10 million. OCR has also imposed a civil monetary
penalty ofabout $4 million in one case in which the covered entity failed for up to a year and a
halfto provide 41 individuals with access to their health information, as required by the HIPAA
Privacy Rule, and failed to cooperate with OCR•s investigation.


                                                2

         Office of Inspector General Note - Technical comments in the auditee's
         response to the draft have been omitted from the fmal repmt and all appropriate
         changes have been made.
                                                                                                                Page 3 of6




OCR continues to develop privacy and security-oriented technical assistance materials for
HIPAA covered entities and business associates:

           • 	 OCR developed guidance to assist organizations in identifying and implementing the
               most effective and appropriate administrative, physical, and technical safeguards to
               secure e-PHI through conducting a risk analysis oftheir information systems that
               handle e-PHI.
           • 	 OCR provided technical assistance in the development of the NIST HIPAA Security
               Toolkit Application, a self-assessment survey intended to help organizations better
               understand the requirements of the HIP AA Security Rule.
           • 	 ONC and OCR partnered to develop tools and resources to help providers meet
               privacy and security requirements addressing the security of ePHI when using mobile
               devices and developed a videogame that provides privacy and security training for
               health care professionals.
           • 	 OCR has developed 2 educational videos that raise awareness about safeguarding
               electronic health information and the requirements of the Security Rule. These videos
               are available through the "You Tube" Internet website.
           • 	 OCR has developed video training modules that provide health care professionals and
               staff with information on the requirements of the Security Rule, the importance of
               conducting an information security risk analysis, and the importance of safeguarding
               mobile devices. These video titles are available on the Medscape Internet website.



2) Provide for periodic audits in accordance with HITECH to ensure Security Rule
   compliance at covered entities

Section 13411 ofthe HITECH Act states that the Department shall provide for periodic audits of
covered entities and business associates that are subject to the requirements ofthe HITECH Act
and the HIPAA Rules to ensure compliance with such requirements. Since 2010, OCR has made
significant strides to develop and implement an audit program to ensure the compliance of
covered entities and business associates with the HIPAA Privacy, Security, and Breach
Notification Rules. OCR has contracted for the development of options for implementation of
the audit mandate, developed a comprehensive audit protocol that also serves as a guide for
entity compliance, conducted 115 audits of covered entities, and initiated an evaluation of the
audit program conducted to date to inform decision making about future audits. While OCR
agrees with the recommendation that the HITECH audit program represents an effective tool, no
                                                                                   1
monies have been appropriated for OCR to maintain a permanent audit program.

Audit Plan Development
In 2010, OCR contracted with Booz Allen Hamilton (BAH) to identify key issues that OCR
would need to address in the development and operation of an audit program and to recommend


1
    OCR used ARRA funds to support the audit activities described. The availability of these funds expired in
December 2012.

                                                            3
                                                                                                                     Page 4 of6




models for conducting audits. BAH reviewed existing audit programs and industry materials,
and conducted interviews with industry experts. The BAH report addressed the phases of an
audit program, from planning to reporting and follow-up, and identified a number of key issues
and decisions that OCR would need to address prior to beginning audits.

Based upon the model options and issues identified by BAH, OCR decided to pursue a pilot
audit strategy, which included establishing the building blocks for an audit program, conducting
comprehensive audits in an iterative manner to leverage the experiences ofinitial audits to
benefit later audits, and contracting out the performance of the onsite audits. At the same time,
OCR committed to an evaluation ofthe pilot audit experience.

Building the Audit Program
                                                                                       2
Prior to conducting any audit, OCR needed to identify the universe of covered entities that
would be subject to audits and to develop an audit protocol. To identify covered entities, OCR
contracted with BAH to develop a comprehensive listing of covered entities from existing public
and private data sources. To develop the protocol to use for audits of covered entities, OCR
contracted with KPMG. Both the listing ofcovered entities and the HIPAA audit protocol were
completed in 2011.

Conducting Audits
OCR decided that the most effective strategy to start the audit program was to contract for onsite
audits to be performed by a single entity, and to first test the protocol on a small, diverse group
ofcovered entities with later expansion to a larger group ofcovered entities. OCR's goal was to
identify a baseline for covered entity compliance among a broad section of the HIPAA Privacy,
Security, and Breach Notification standards while gaining the knowledge and experience in the
operation ofan audit function.

OCR selected 50 standards from across the three Rules for assessment. The focus in the audits
was to assess whether entities had sufficient policies, procedures, and infrastructure in place to
meet the HIPAA Rule requirements. Between December 20 II and March 2012, KPMG
conducted 20 audits. Based upon the initial audit experience and use ofthe protocol, changes
were made to the protocol and to the audit process. KPMG then conducted a final 95 audits of
various sizes and types ofcovered entities from April2012 to December 2012.

Of the 115 audits conducted, 47 health plans, 61 health care providers, and 7 clearinghouses
were audited. The covered entities audited included a broad mix ofpublic and private entities,
local, regional and national entities, and entities with both significant and minor health
information technology adoption.

The audit results demonstrated several clear trends. Although Security Rule standards
represented one quarter ofstandards assessed by KPMG, findings and observations for those


' Note that because final regulations for the compliance obligations of business associates were not yet In place,
OCR focused on auditing covered entities in the pilot phase of the audit program.

                                                         4
                                                                                                    Page 5 of6




standards accounted for over halfof all findings and observations. In addition, although thirteen
entities had no findings or observations, health care providers generally had greater compliance
gaps than health plans and clearinghouses. Finally, small entities overall struggled in each
assessment area- privacy, security and breach notification- while larger entities had
proportionally fewer and more limited findings.

Evaluation of the Pilot Audit Program
Following the completion of audits by KPMG in 2012, OCR contracted with Price Waterhouse
Coopers (PWC) to evaluate a variety of aspects ofthe pilot HIPAA audit program, including the
selection of entities and standards, audit conclusions and work papers, and the operation and
management ofthe program by OCR. The evaluation will include a survey of all audited entities
to assess the impact of the audits on the industry and covered entities individually. Final
recommendations will be made to OCR in the last quarter of2013.

Based upon the findings and recommendations ofPWC's evaluation, OCR will make decisions
about a permanent audit program. Future decisions will include the strategy and process for
audits of business associates and a development of program priorities. Future audits are less
likely to be broad assessments generally across the Rules and more likely to focus on key areas
ofconcern for OCR identified by new initiatives, enforcement concerns, and Departmental
priorities.


3) Implement sufficient controls, such as supervisory reviews and documentation retention
   to ensure policies and procedures in Security Rule investigations are followed.

OIG found that there were insufficient records ofthe documentation of complaint investigations
and compliance reviews in the Compliance Data System (CDS) information system that OCR
used to manage and store the documentation for the investigation ofHIPAA Security Rule
complaints and compliance reviews. At the time of OIG' s review, OCR operated two
information systems to support and track investigations, as well as other official correspondence
ofthe agency. The Compliance Data System (CDS) was used to support the activities related to
the enforcement activities of the Security Rule. The Program Information Management System
(PIMS) was used as the information system to support all of OCR's other administrative and
enforcement activities. In 2012, OCR merged the data from CDS into PIMS to improve
efficiency and assure that the documentation of Security Rule complaint investigations and
compliance reviews were accurate and complete. CDS has been decommissioned and PIMS now
serves as the only information system to manage the documentation and case progression of
OCR' s activities to support the Security Rule.

OCR made a significant upgrade to its PIMS information systems that implemented specific
requirements that ensure all cases have the appropriate documentation, including initiating and
closing documentation, and management review. Depending on the type of case, additional
information may be required. Any case that is investigated will have a strategy in the case folder
which is approved by management. Investigators on Security Rule cases have access to subject
matter experts with appropriate technical certifications for assistance in analyzing and evaluating

                                                 5
                                                                                                    Page 6 of6




information security issues. Management reviews of case evidence, procedural documentation,
and investigative procedures are recorded in PIMS for all closures.

4) Implement the NIST Risk Management Framework for system used to oversee and
   enforce the Security Rule.

OIG found that information systems used by OCR for its oversight and enforcement data did not
fully comply with the Federal cybersecurity requirements. Since the OIG review, OCR has taken
steps to assure its compliance with the HHS Standards for FISMA Inventory Management:
    • 	 CDS has been decommissioned and all data has been merged into PIMS. All hardware
        and software associated with CDS has been decommissioned in accordance with the
        procedures ofthe hosting facility at NIH/CIT.
    • 	 PIMS has been brought into compliance with the FISMA requirements for completing a
        privacy impact assessment, risk analysis and system security plan. An authorization to
        operate (ATO) PIMS was issued by the Department's ChiefInformation Officer and is
        valid through January 2015.
    • 	 Administrative and technical management ofthe Breach Notification System is the
        responsibility of the Assistant Secretary for Public Affairs (ASPA). ASPA advises that
        the system operates under an ATO granted for its managed network systems.

OCR would be pleased to provide the documentation in support of these activities on request.

Thank you again for the opportunity to review the draft report. Please do not hesitate to contact
me with any questions.




                                                6
